                                                                                                            )




                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-09-03-0018                                                                    Page 1 of1



         We conducted an investigative review of an institution 1 that had an award 2 with a large
         percentage3 of its budget in one line item4 • An initial review of the general ledger revealed
         charges which were possibly incurred after the expiration date of the award.

         Subsequent investigation, which included a through review of source documentation for all of the
         relevant charges, revealed that all charges to the award were incurred during the award period.
         There were no indications of fraud or other wrongdoing.

         Accordingly, this investigation is closed.




         2


         4




NSF OIG Form 2 (11102)
